No. 19In THE

Supreme Court of tfje Muttrii States
KANEKA CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY,
PACIFIC RAINBOW INTERNATIONAL INC.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Keith D. Nowak
Counsel ofRecord
William F. Sondericker
Gerald W. Griffin
Carter Ledyard & Milburn LLP
Two Wall Street
New York, New York 10005
(212) 732-3200
nowak@clm.com
Counsel for Petitioner
291472

0

COUNSEL PRESS

(800)274-3321 • (800)359-6859

QUESTIONS PRESENTED
1. Whether under Rule 36 of the Federal Circuit’s
Rules of Procedure the Federal Circuit may affirm a
judgment of non-infringement without opinion and on
alternative grounds first raised by the respondents
at oral argument where affirmance of the judgment
depends on genuine issues of disputed material fact as to
infringement identified by the district court in denial of
respondents’ summary judgment and not yet determined
by a jury in violation of Securities Exchange Commission
v. Chenery Corp., 318 U.S. 80 (1943) and the Fifth and
Seventh Amendments.
2. Whether under Rule 36 of the Federal Circuit’s
Rules of Procedure the Federal Circuit may affirm avoid
stipulated judgment of non-infringement without opinion
and thereby reverse without appellate jurisdiction a
district court’s finding of genuine issues of disputed
material fact as to infringement and reasoned denial of
summary judgment in violation of Taylor v. McKeithen, 407
U.S. 191 (1972) and the Fifth and Seventh Amendments.
3. Whether under Rule 36 of the Federal Circuit’s
Rules of Procedure the Federal Circuit may affirm
judgment of non-infringement without opinion and without
resolving conflicting claim constructions of two district
courts and thereby prevent a patentee from enforcing its
valid patents in violation of Article I, Section 8, Clause 8
of the Constitution, the Fifth Amendment, and Congress’
mandate that the Federal Circuit unify decisions in patent
cases.

II

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Kaneka
Corporation, is a privately held corporation and none of
its shares is held by a publicly traded company.

in

RELATED CASES STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the above-captioned
case in this Court.
Zhejiang Medicine Co. Ltd. and ZMC-USA LLC
v. Kaneka Corporation, Civil Action No. 4:11-CV-1052
(VDG) (S.D. Tx.), Judgment Entered January 16,2018.
Kaneka Corporation v. Xiamen Kingdomway Group
Company, Appeal No. 2014-1373 (Fed. Cir.), Judgment
Entered June 10,2015.
Kaneka Corporation v. Xiamen Kingdomway Group
Company, Appeal No. 2014-1399 (Fed. Cir.), Judgment
Entered June 10,2015.
Kaneka Corporation v. Xiamen Kingdomway Group
Company, Civil Action No. 2:ll-CV-02389 (JSO) (C.D.
Cal.), Judgment Entered April 10, 2018.
Kaneka Corporation v. Xiamen Kingdomway Group
Company, Appeal No. 2019-1892 (Fed. Cir.), Judgment
Entered May 13,2019.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

CORPORATE DISCLOSURE STATEMENT

ii

RELATED CASES STATEMENT

iii

TABLE OF CONTENTS,

iv

TABLE OF APPENDICES
TABLE OF CITED AUTHORITIES

viii
ix

OPINIONS BELOW

1

JURISDICTION

1

RULES OF PROCEDURE INVOLVED

1

STATEMENT OF THE CASE

3

STATEMENT OF FACTS AND PROCEDURAL
HISTORY.....................................................

,8

1.

Petitioner’s Patent

8

2.

The District Court Evidently And
Improperly Changed The Federal
Circuit’s Prior Claim Construction...........

9

V

Table of Contents
Page
3.

4.

5.

6.

Petitioner Stipulated To Judgment Of
Non-Infringement Based Solely On The
Evident And Improper Change To The
Claim Construction...................................

12

Petitioner Appealed The Evident
And Improper Change To The Claim
Construction To The Federal Circuit.......

13

The Federal Circuit Affirmed A Void
Stipulated Judgment Without Opinion
And On Alternative New Grounds,
Indicating During Oral Argument That
The Court’s Prior Claim Construction Had
Not Been Changed...................................

15

The Panel Denies Rehearing Without
Opinion..................................................

17

REASONS FOR GRANTING THE WRIT
I.

THE FEDERAL CIRCUIT
MAY NOT AFFIRM WITHOUT
OPINION, AND ON ALTERNATIVE
GROUNDS, JUDGMENTS OF NON­
INFRINGEMENT WHERE GENUINE
ISSUES OF MATERIAL FACTHAVE NOT
BEEN DETERMINED BY A JURY.......

.20

25

VI

Table of Contents
Page
II. THE FEDERAL CIRCUIT MAY NOT
AFFIRM WITHOUT OPINION VOID
STIPULATED JUDGMENTS AND
THEREBY REVERSE WITHOUT
APPELLATE JURISDICTION
REASONED DECISIONS OF
DISTRICT COURTS, SHIELDING
SUCH REVERSALS FROM THIS
COURT’S REVIEW................................

29

III. THE FEDERAL CIRCUIT MAY
NOT AFFIRM JUDGMENTS OF
NON-INFRINGMENT WITHOUT
OPINION AND WITHOUT
RESOLVING CONFLICTING CLAIM
CONSTRUCTIONS, PREVENTING
PATENTEES FROM ENFORCING
THEIR VALID PATENTS.....................

32

A. The Federal Circuit’s Rule 36
Decision Violates Established Rules
of Claim Construction.......................

32

B. The Federal Circuit’s Rule 36 Decision
Subjects Petitioner To The District
Court’s Patently Incorrect Claim
Construction, “From The Consequences
Of Which [It] Cannot Escape”...........

35

Vll

Table of Contents
Page
C. The Federal Circuit’s Rule 36
Decision Violates Congress’ Mandate
That The Court Unify Decisions In
Patent Cases...................................

37

D. This Court Should Exercise Its
Supervisory Authority And Require
The Federal Circuit To Explain
The Court’s Decisions Regarding
Uncertain And Conflicting Claim
Constructions.....................................

38

CONCLUSION

39

Vlll

TABLE OF APPENDICES
Page
APPENDIX A—JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED MAY 13,2019....... la
APPENDIX B — FINAL JUDGMENT OF
THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF
CALIFORNIA, FILED APRIL 20,2018.......

3a

APPENDIX C — JUDGMENT OF THE
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF
CALIFORNIA, FILED APRIL 10,2018.......

5a

OPINION OF THE
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF
CALIFORNIA, DATED APRIL 5,2018.......

15a

OPINION OF THE
APPENDIX E
UNITED STATES DISTRICT COURT,
CENTRAL DISTRICT OF CALIFORNIA,
DATED FEBRUARY 22,2017.......................

,98a

APPENDIX F — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED AUGUST 12,2019.............................. 138a

IX

TABLE OF CITED AUTHORITIES
Page
CASES
AFG Indus., Inc. v. Cardinal IG Co.,
375 F.3d 1367 (Fed. Cir. 2004) ...

11

Boddie v. Connecticut,
401 U.S. 371 (1971).

31

Bounds v. Smith,
430 U.S. 817 (1977)
C-Cation Techs., LLC v. Arris Group, Inc.,
No. 17-617, cert denied, 138 S. Ct. 1693 (2018)

4,31

21

Celgard, LLC v. Iancu,
No. 16-1526, cert denied, 138 S. Ct. 1714 (2018)... .21
Davis v. Wakelee,
156 U.S. 680 (1985)

,28

Dickerson v. United States,
530 U.S. 428 (2000)

.38

Donovan v. RRL Corp.,
26 Cal. 4th 261 (2001)

16

Franklin-Mason v. United States,
No. 17-1256, cert denied, 138 S. Ct. 1703 (2018)... .22
Hogg v. Emerson,
47 U.S. 437,12 L. Ed. 505 (1848)

34

X

Cited Authorities
Page
Integrated Claims Sys., LLC v.
Travelers Lloyds of Texas Ins. Co.,
No. 17-330, cert denied, 138 S. Ct. 1693 (2018)

21

Joshua v. United States,
17 F.3d 378 (Fed. Cir. 1994)

23

Kaneka Corp. v. Xiamen Kingdomway Group Co.,
passim
790 F.3d 1298 (Fed. Cir. 2015)
In re Leithem,
661 F.3d 1316 (Fed. Cir. 2011)

.28

Markman v. Westview Instruments, Inc,
52 F.3d 967 (Fed. Cir. 1995)...............

passim

Markman v. Westview Instruments, Inc.,
517 U.S. 370 (1996)...............................

passim

New Hampshire v. Maine,
532 U.S. 742 (2001)....

,28

Phil-Insul Corp. v. Airlite Plastics Co.,
854 F.3d 1344 (Fed. Cir. 2017)........

.35,36

Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005)

11,34

Richmond Newspapers, Inc. v. Virginia,
448 U.S. 555 (1980) ............................

4

XI

Cited Authorities
Page
Securities Exchange Commission v.
Chenery Corp.,
318U.S.80(1943) .................

passim

Security People, Inc. v. Ojmar US, LLC,
No. 17-1443, cert, denied, 138 S. Ct. 2681 (2018) .. .21
Straight Path IP Group, LLC v. Apple, Inc.,
No. 19-253, cert, denied,_S. Ct.__ (2019).

22

Stambler v. Mastercard International Inc.,
No. 17-1140, cert, denied, 139 S. Ct. 54 (2018),

21

Stevenson v. Reed,
391 F. Supp. 1375 (N.D. Miss. 1975), affd
and adopted, 530 F.2d 1207 (5th Cir. 1976) ..

4

Taylor v. McKeithen,
407 U.S. 191 (1972)

passim

Tennessee v. Lane,
541 U.S. 509 (2004)

31

Thiel v. Southern Pacific Co.,
328 U.S. 217 (1946)..........

,38

Thomas v. WGN News,
637 F. App’x 222 (7th Cir. 2016)
Verma v. Polaris Software Lab Ltd.,
229 F. App’x 112 (3d Cir. 2007) ..

,3,22

16

XU

Cited Authorities
Page
Western Pacific Railroad Corp. v.
Western Pacific Railroad Co.,
345 U.S. 247 (1953) ................

.38

Zhejiang Med. Co. v. Kaneka Corp.,
No. H-l1-1052 (VDG), 2012 U.S. Dist.
LEXIS 194770 (S.D. Tx. Aug. 23,2012) . .9,10,12,34
STATUTES AND RULES
U.S. Const. Amend. V
U.S. Const. Amend. VII

31
23,28,31

U.S. Const. Amend. XIV

31

U.S. Const. Article I, § 8, cl. 8

35

28 U.S.C. § 2071

29

28 U.S.C. § 2072(a)

.38

1st Cir. R. 36

3

1st Cir. R. 36(a)

21

2d Cir. I.O.P. 32.1.1

21

3d Cir. I.O.P. 6.3.2

21

Xlll

Cited Authorities
4th Cir. R. 36.3

Page
3,21

5th Cir. R. 21

30

5th Cir. R. 47.6

21

6th Cir. R. 36

.3,22

8th Cir. R. 47B

21

9th Cir. R. 4.3a

3

9th Cir. R. 36-1

22

10th Cir. R. 36.1

21

11th Cir. R. 36-1

3

D.C. Cir. R. 36(b)

3

D.C. Cir. R. 36(d)

,22

Fed. R. App. R 36
Fed. Civ. R. 36

1, 7,29
passim

Fed. Civ. R. 36(a)

26

Fed. Civ. R. 36(b)

,26

XIV

Cited Authorities
Page
Fed. Civ. R. 36(c)

26

Fed. Civ. R. 36(d)

26

Fed. Civ. R. 36(e)

.26

29 C.F.R. 1910.1000 Table Z1

9

Federal Circuit Decisions Database, U. Iowa, https://
fedcircuit.shinyapps.io/federalcompendium/
(last visited Jan. 7,2020)................................

3

Federal Courts Improvement Act of 1982,
Pub L. No. 97-164, 96 Stat 25......................... 4,37
OTHER SOURCES
Curtis on Patents, § 452 at 609

33

The Seventh Annual Judicial Conference of
the United States Court of Appeals for
the Federal Circuit, 128 F.R.D 409 (1989).......

.23

David Johnson, ‘“You Cant Handle the Truth!’
- Appellate Courts’ Authority To Dispose
of Cases Without Written Opinions,”
22 App. Advoc. 419 (2010)..............................

21

Dennis Crouch, “Wrongly Affirmed Without
Opinion,” 52 Wake Forest L. Rev. 561 (2017) .

.20

XV

Cited Authorities
Page
Kimberly A. Moore, Are District Court
Judges Equipped to Resolve Patent Cases?,
15. Harv. J.L. & Tech. 1 (2001).......................

4

Kimberly A. Moore, Markman Eight Years Later:
Is Claim Construction More Predictable?,
9 Lewis & Clark L. Rev. 231 (2005)................

3-4

Gene Quinn and Steve Brachmann, “No End in
Sight for Rule 36 Racket at Federal Circuit,”
https://www.ipwatchdog.com/2019/01/29/noend-sight-rule-36-racket-cafd/id-105696/.........

.20

Gene Quinn and Steve Brachmann, “Is the Federal
Circuit Using Rule 36 To Avoid Difficult
Subject Matter?” https://www.ipwatchdog.
com2018/07/30/federal-circuit-rule-36-avoiddifficult-subject-matter/id=99202/ ..................

20

Hexane Safety Data Sheet, Praxair, https://amp.
generalair.com/MsdsDocs/PA62282S.pdf ....

9

Jason Rscntanen,DataonFederal CircuitAppeals and
Decisions, PATENTLY-0 http://patentlyo.com/
patent/2016/06/circuit-appeals-decisions.html....... 21
Peter Harter and Gene Quinn, “Does The Federal
Circuit’s Use Of Rule 36 Call Into Question
Integrity OfThe Judicial Process, ” https://www.
ipwatchdog.com/2017/02/14/federal-circuit-rule36-integrtiy-judicial-process/id=78261/..........

.20

XVI

Cited Authorities
Page
Peter Harter and Gene Quinn, “Rule 36:
Unprecedented Abuse at the Federal Circuit,”
https: //www.ipwatchdog. com/2017/01/12/
rule-36-abuse-federal circuit/id=6971/...........

21

Rebecca A. Lindhorst, “Because I Said So:
The Federal Circuit, the PTAB, and the
Problem With Rule 36 Affirmances,”
69 Case W. Res. L. Rev. 247 (2018)................

21

Robinson on Patents, § 733

33

S. Rep No. 97-275 (1981)

37

1
OPINIONS BELOW
The order of the United States Court of Appeals for
the Federal Circuit summarily affirming the judgment
of the District Court (Pet. App. A, pp. la-2a) appears at
767 Fed. Appx. 998. The opinion and order of the District
Court (Pet. App. D, pp. 15a-97a) is unreported but appears
at Kaneka Corp. v. Zhejiang Med. Co., CV11-2389,2018
U.S. Dist. LEXIS 82023 (C.D. Cal. Apr. 5,2018).
JURISDICTION
The judgment of the court of appeals was issued
on May 13, 2019. A timely petition for rehearing and
rehearing en banc was denied on August 12, 2019 (Pet.
App. F, pp. 138a-140a). On October 1, 2019, the Chief
Justice extended the time within which a petition for
certiorari could be filed to January 10,2020.
RULES OF PROCEDURE INVOLVED
Rule 36 of the Federal Rules of Appellate Procedure
provides:
Rule 36. Entry of Judgment; Notice
(a) Entry. A judgment is entered when it is
noted on the docket. The clerk must prepare,
sign, and enter the judgment:
(1) after receiving the court’s
opinion—but if settlement of the
judgment’s form is required, after
final settlement; or

2

(2) if a judgment is rendered without
an opinion, as the court instructs.
(b) Notice. On the date when judgment is
entered, the clerk must serve on all parties
a copy of the opinion—or the judgment, if no
opinion was written—and a notice of the date
when the judgment was entered.
Rule 36 of the Local Rules of the United States Court
of Appeals for the Federal Circuit provides:
Federal Circuit Rule 36. Entry of Judgment-Judgment
of Affirmance Without Opinion
The court may enter a judgment of affirmance
without opinion, citing this rule, when it
determines that any of the following conditions
exist and an opinion would have no precedential
value:
(a)the judgment, decision, or order of the trial
court appealed from is based on findings that
are not clearly erroneous;
(b) the evidence supporting the jury’s verdict
is sufficient;
(c) the record supports summary judgment,
directed verdict, or judgment on the pleadings;
(d) the decision of an administrative agency
warrants affirmance under the standard of
review in the statute authorizing the petition
for review; or

3
(e) a judgment or decision has been entered
without an error of law.
STATEMENT OF THE CASE
Under Rule 36 of its Rules of Procedure, the Federal
Circuit may affirm judgments without opinion as the
court deems appropriate. The Federal Circuit deems it
appropriate in more than one out of every three cases that
it affirms, far more than the four other circuits that allow
affirmances without opinion. The remaining and majority
of the circuits require their panels to provide some basis
for their decisions.1
The Federal Circuit’s excessive use of Rule. 36 has a
disproportionate and adverse effect on patent law because
of the Federal Circuit’s exclusive jurisdiction over patent
cases. This is particularly true with respect to claim
construction, which defines a patentee’s patent rights and
inevitably decides if those rights are infringed. Markman
v. Westview Instruments, Inc, 52 F. 3d 967,989 (Fed. Cir.
1995). In more than one out every three cases that the
Federal Circuit affirms without opinion under Rule 36,
the parties are appealing claim constructions.2
1. 1st Cir. R. 36; 4th Cir. R. 36.3; 6th Cir. R. 36; 9th Cir.
R. 4.3a; 11th Cir. R. 36-1 (rescinded Aug. 1, 2006); D.C. Cir. R.
36(b); see, e.g, Thomas v. WGN News, 637 F. App’x 222,223 (7th
Cir. 2016).
2. This figure is based on this firm’s review of data obtained
from the University of Iowa’s Federal Circuit Decisions Database.
See Federal Circuit Decisions Database, U. Iowa, https://
fedcircuit.shinyapps.io/federalcompendium/ (last visited Jan. 7,
2020). See also, Kimberly A. Moore, Markman Eight Years Later:
Is Claim Construction More Predictable?, 9 Lewis & Clark L.

4
The Federal Circuit’s excessive use of Rule 36 in
claim construction appeals results in uncertain and
conflicting claim constructions that prevent patentees
from subsequently enforcing their valid patents.3 This
practice undermines the Federal Circuit’s purported goals
of judicial transparency, accountability, and accuracy,
and Congress’ legislative mandate that the court provide
guidance and consistency to patent law. Federal Courts
Improvement Act of 1982, Pub L. No. 97-164, 96 Stat 25.
The Federal Circuit’s excessive use of Rule 36 also
deprives patentees of their right of access to the courts.4
Access to the courts is a fundamental right, Bounds v.
Smith, 430 U.S. 817,828 (1977), among the key guarantees
implicit in the Constitution. See Richmond Newspapers,
Inc. v. Virginia, 448 U.S. 555, 579-80 (1980). Access to
courts has been interpreted to provide not only physical
access but also the realistic possibility of engaging in
purposeful communication with the courts. See, e.g.,
Stevenson v. Reed, 391 F. Supp. 1375, 1381 (N.D. Miss.
1975), aff’d and adopted, 530 F.2d 1207 (5th Cir. 1976).
This case is an example of how the Federal Circuit’s
extreme, excessive and errant use of Rule 36 deprived
petitioner its right of access to the courts by denying
petitioner a jury trial of its patent infringement claims
previously ordered by the District Court and denying
Rev. 231,239 n.31 (2005); Kimberly A. Moore, Are District Court
Judges Equipped to Resolve Patent Cases?, 15. Harv. J.L. & Tech.
1, 8 n.36 (2001).
3. See Point III, infra.
4. See Points I and II, infra.

5

petitioner appellate review by this Court. The Federal
Circuit’s use of Rule 36 further deprived petitioner
purposeful communication with the court regarding
claim construction, which resulted in conflicting claim
constructions of two district courts, leaving petitioner’s
patent rights uncertain and effectively unenforceable.
Here, the District Court denied respondents summary
judgment and ordered a trial by jury of petitioner’s patent
infringement claims on respondents’ old manufacturing
process based on findings of genuine issues of disputed
material fact as to whether respondents’ old process
practices the patent’s “sealed tank” limitation. Petitioner,
however, stipulated to judgment of non-infringement of
the old process based solely on and because of the District
Court’s spontaneous change to the Federal Circuit’s
prior construction of “sealed tank”, which the Federal
Circuit adopted from another district court, to add a
“one-way check valve” not present in the patent’s claims
or specification, and respondents’ assertion that they do
not infringe because their tank does not contain or use
such a valve. Petitioner then appealed the spontaneous,
evident, improper and conflicting claim construction to
the Federal Circuit.
The Federal Circuit affirmed judgment of non­
infringement without opinion, and on alternative new
grounds, unrelated to the unfounded and non-existent
“one-way check valve” as to which petitioner solely
stipulated and based its appeal. During oral argument,
the Federal Circuit surprisingly indicated that the District
Court had not changed its prior construction to require
a “one-way check valve”, despite those very words in the
District Court’s order, but that the judgment of non-

6

infringement should nevertheless be affirmed without the
change on an alternative new ground that neither party
had argued or briefed on appeal and that respondents
raised for the first time during oral argument.
If the District Court did not change the Federal
Circuit’s prior claim construction, the stipulated judgment
is ipso facto inapplicable and void, nullifying the Federal
Circuit’s appellate jurisdiction and requiring remand for
a trial on infringement that the District Court previously
ordered. Instead, the Federal Circuit improvidently
assumed jurisdiction and affirmed the void stipulated
judgment of non-infringement on alternative grounds
unrelated to the stipulated judgment and without
resolving the inherent conflict between the two separate
district courts’ constructions of “sealed tank”, one that
requires a “one-way check valve”, and one that does not.
The Federal Circuit’s affirmance of the void stipulated
judgment without appellate jurisdiction improperly
reversed without opinion the District Court’s prior
denial of summary judgment of non-infringement. The
genuine issues of disputed material fact as to infringement
identified by the District Court and reserved exclusively
for a jury were not and have never been determined by
a jury.
While appellate courts can affirm judgments on
alternative grounds where the district court’s result
is correct, even if its reasoning is wrong, it may not
affirm on alternative grounds if the correctness of
the judgment is dependent on a determination of fact
that only a jury can make but which as here has not
yet been made. Securities Exchange Commission v.

7

Chenery Corp., 318 U.S. 80 (1943). Here, the correctness
of the District Court’s judgment of non-infringement is
dependent on the jury’s determination of genuine issues of
disputed material fact as to whether respondents practice
the “sealed tank” limitation, which the District Court
identified but a jury has not yet determined. The Federal
Circuit lacks jurisdiction and authority under Rule 36 to
determine infringement issues of fact in the place of a jury
and thereby deprive petitioner of a jury trial previously
ordered by the District Court. Id.
Moreover, the Federal Circuit may not reverse
without opinion under Rule 36 the District Court’s
finding of genuine issues of disputed material fact and
the court’s reasoned denial of summary judgment of non­
infringement because doing so improperly shields the
court’s reversal from this Court’s review. In this Court’s
only comment on an appellate courts’ discretion to affirm
without opinion under Rule 36 of the Federal Rules of
Appellate Procedure, the Court made clear that appellate
courts do not have the discretion to reverse a district
court’s reasoned decision without opinion. Taylor v
McKeithen, 407 U.S. 191 (1972). This Court explained
that such summary reversals prevent the Court from
determining whether a substantial federal question has
been raised for its review. Id. The Federal Circuit may
not use Rule 36 to deny patentees their due process right
of access to this Court’s review.
By issuing a decision without opinion under Rule 36,
the Federal Circuit failed to resolve the inherent conflict
between the District Court’s claim construction that adds
a “one-way check valve” to “sealed tank” and the Federal
Circuit’s prior construction, which the court adopted

8

from another district court, that does not. If petitioner
asserts patent infringement against another infringer
in the future, the infringer will undoubtedly argue that
petitioner is collaterally estopped by the District Court’s
claim construction requiring a “one-way check valve” as
affirmed without opinion by the Federal Circuit under
Rule 36. The Federal Circuit’s failure to resolve the
district courts’ conflicting claim constructions prevents
petitioner and other patentees similarly situated from
enforcing their valid patents.
STATEMENT OF FACTS AND
PROCEDURAL HISTORY
1. Petitioner’s Patent
Petitioner’s patent claims four industrial processes
for manufacturing oxidized coenzyme Q10 (“CoQ1?”).
CoQ10is a molecular compound found in the cells of living
organisms and acts as an antioxidant. Pet. Supp. App., pp.
SA16-SA17. The patented processes manufacture CoQ10
through steps of culturing microorganisms, disrupting
their cells, extracting CoQ10 from cells with organic
solvent, and oxidizing CoQ10. Pet. Supp. App., p. SA16.
Two of the patent’s claims require the extracting step
to be performed in a “sealed tank.” Pet. Supp. App., p.
SA17. The patent’s specification requires the extracting
step to “be carried out in consideration of general safe
operation.” Safety is important because organic solvent
used to extract CoQ10 is extremely flammable. Organic
solvent vapors can travel by air currents and ignite
by ignition sources such as electrical equipment in an

9
industrial plant.5 A “sealed tank” prevents these vapors
from escaping the tank and catching fire in an industrial
plant.
2. The District Court Evidently And Improperly
Changed The Federal Circuit’s Prior Claim
Construction
Petitioner sued respondents and other Chinese
manufacturers for patent infringement in the Central
District of California (the “District Court”). Pet. App. D,
pp. 19a-20a. The District Court transferred petitioner’s
infringement claims against one of the other Chinese
manufacturers to the Southern District of Texas (the
Texas Court”). Pet. App. D, p. 20a. The two actions
proceeded in parallel with the District Court and the
Texas Court construing the term “sealed tank” differently,
which led to a prior appeal to the Federal Circuit.
In the prior appeal, the Federal Circuit construed
“sealed tank” to mean “a tank that prevents exposure
of the tank’s contents to the atmosphere.” Kaneka Corp.
v. Xiamen Kingdomway Group Co., 790 F.3d 1298,1305
(Fed. Cir. 2015) (“KingomwayThe Federal Circuit
adopted nearly verbatim the Texas Court’s construction of
sealed tank”,6 which noted that “preventing exposure to
5. See, e.g., Hexane Safety Data Sheet, Praxair, https://amp.
generalair.com/MsdsDocs/PA62282S.pdf; 29 C.F.R. 1910.1000
Table Z1 (Limits for Air Contaminants).
6. The Texas Court construed “sealed tank” to mean “a
tank that prevents exposure of its contents to the atmosphere.”
Zhejiang Med. Co. v. Kaneka Corp., No. H-ll-1052 (VDG), 2012
U.S. Dist. LEXIS 194770, at *63 (S.D. Tx. Aug. 23,2012).

10
the atmosphere is consistent with the patent specification’s
discussion of safety concerns,” ie. a “sealed tank” prevents
flammable gas from escaping the tank. Zhejiang Med. Co.
v. Kaneka Corp., No. H-ll-1052 (VDG), 2012 U.S. Dist.
LEXIS 194770, at *62 (S.D. Tx. Aug. 23,2012).
On the eve of trial, the District Court dismissed on
summary judgment petitioner’s infringement claims
regarding respondents’ new manufacturing process but
ordered a trial on their old manufacturing process finding
genuine issues of disputed material fact as to whether
respondents practice the “sealed tank” limitation. See
Pet. App. D, pp. 77a-79a, 96a, In its decision, however, the
District Court spontaneously added from out of nowhere a
“one-way check valve” not found in the patent’s claims or
specification or anywhere else to the term “sealed tank”:
While [the Court’s order] does conclude that
the tank must be sealed during the entirety
of the extraction process, it requires only
that the contents of the tank not be exposed
to the atmosphere—not that the atmosphere
be protected from the contents of the tank.
Thus, the use of a seal pot or some other
one-way check valve that allows gas to
escape the container while the tank is
being filled, but does not allow atmospheric
oxygen to enter, is sufficient to render a tank
“sealed” for purposes of the ‘340 Patent.
This understanding is fully consistent with
the patent specification which discloses that, at
least with respect to reduced coenzyme Q10, the
primary concern during the extraction step is
preventing oxidation. See Pet. App. D at86a-87a
(emphasis added) (internal citations omitted).

11
By adding a “one-way check valve” to the term
“sealed tank”, the District Court deviated from the
patent’s claims as issued by the United States Patent
Office and materially changed the Federal Circuit’s
prior construction in violation of the law of the case. AFC
Indus., Inc. v. CardinalIG Co., 375 F.3d 1367,1371 (Fed.
Cir. 2004).7 The District Court also violated established
rules of claim construction that set forth the hierarchy of
sources used for construction. See Markman v. Westview
Instruments, Inc., 517 U.S. 370 (1996); Phillips v. AWH
Corp., 415 F.3d 1303 (Fed. Cir. 2005). Here, none of the
relevant sources requires or even suggests that a “sealed
tank” has a “one-way check valve” that allows flammable
gas to escape the tank and catch fire in an industrial
plant. The District Court’s spontaneous addition of a
“one-way check valve” is unfounded and a clear error of
legal construction that directly conflicts with the Texas
Court’s construction adopted by the Federal Circuit in
Kingdomway.
In its decision, the District Court erroneously relied
on discussion in the specification that is relevant only to
“reduced” CoQ10. Reduced CoQ10 converts to oxidized
CoQ10 when exposed to oxygen through a chemical
reaction known as “oxidation.” The patent initially
contained a set of claims for producing reduced CoQ10,
and those claims required protecting reduced CoQ10from
oxidation. Petitioner, however, abandoned those claims
7. None of the following exceptions to the law of the case
apply here: (1) discovery of new and different material evidence
that was not presented in a prior action; (2) an intervening change
in controlling legal authority; and (3) when a prior decision is
clearly wrong and its preservation would manifest an injustice.
AFG Indus., 375 F.3d at 1372.

12
during prosecution rendering them immaterial to claim
construction. Pet. Supp. App., pp. SA20, SA24.
The claims of the patent at issue in this case produce
oxidized CoQ10, not reduced CoQ10. Pet. Supp. App., pp.
SA16-SA17. Indeed, the claims require an oxidizing step
that ensures all reduced CoQ10 is fully oxidized to oxidized
CoQj0. Pet. Supp. App., pp. SA16-SA17. It is unnecessary
and in fact counterproductive to protect reduced CoQ10
from oxidation when the purpose and goal of the patented
process is to produce oxidized CoQ1?. The relevant
discussion in the specification says so: “it is not necessary
to carry out the recovery of oxidized coenzyme Q10
under the condition that reduced coenzyme Q10 is
protected from an oxidation reaction.” Pet. Supp. App.,
p. SA13. (emphasis added). The Texas Court previously
held so: “the patent specification contemplates extraction
processes that are not protected from an oxidation
reaction.” Zhejiang Med. Co., 2012 U.S. Dist. LEXIS
194770, at *71-72. The District Court’s justification for
adding a “one-way check valve” to a “sealed tank” directly
conflicts with the patent’s specification and the Texas
Court’s claim construction adopted by the Federal Circuit
in Kingdomway.
3. Petitioner Stipulated To Judgment Of NonInfringement Based Solely On The Evident And
Improper Change To The Claim Construction
Petitioner stipulated to final judgment of non­
infringement because of the District Court’s evident and
improper change to the construction of “sealed tank” to
add a previously unheard of “one-way check valve” and
because of respondents’ assertion that they do not infringe

13
since their tank does not have such a valve. The stipulated
judgment provides:
14. ...the Accused Methods of Producing
Oxidized Coenzyme Q10 have not infringed and
currently do not infringe the Asserted Claims
of the ‘340 Patent for at least the following
reasons:
(1) The Court’s modification and/or addition
of requirements to the Federal Circuit’s
construction of the “sealed tank” limitation;
In paragraph 14(1), petitioner agreed with respondents
that their tank does not have a “one-way check valve”
and stipulated to final judgment of non-infringement of
respondents’ old manufacturing process for this reason
alone. The District Court so ordered the stipulated
judgment without any objection by respondents confirming
that final judgment of non-infringement on the old process
was based solely on respondents’ tank not having a “one­
way check valve.” See Pet. App. B, pp. 3a-4a and Pet. App.
C., pp. lla-12a.
4. Petitioner Appealed The Evident And Improper
Change To The Claim Construction To The Federal
Circuit
Petitioner appealed to the Federal Circuit arguing that
the District Court improperly changed the construction
of “sealed tank” because neither the patent’s claims or
specification, nor the Texas Court’s prior construction
adopted in Kingdomway, require or even suggest that a
“sealed tank” has a “one-way check valve” that prevents

14
air from entering the tank, and collectively make clear
that a “sealed tank” prevents flammable gas from
escaping the tank and catching fire in an industrial plant.
Non-Confidential Brief for Plaintiff-Appellant at 5-6,
Kaneka Corp. v. Xiamen Kingdomway Group Co., No.
2018-1892 (Fed. Cir. Jul. 26, 2018) (“Appellant’s Brief”);
Non-Confidential Reply Brief for Plaintiff-Appellant at
6-7, Kaneka Corp. v. Xiamen Kingdomway Group Co.,
No. 2018-1892 (Fed. Cir. Nov. 1,2018)(“Appellant’s Reply
Brief”).
In opposition, respondents argued that the District
Court properly changed the construction to add a “one­
way check valve” because a “sealed tank” must prevent
air from entering the tank to protect reduced CoQ10 from
oxidation, and that the stipulated judgment should be
affirmed because their tank does not have a “one-way
check valve.” Nonconfidential Brief for Appellees at 38-39,
Kaneka Corp. v. Xiamen Kingdomway Group Co., No.
2018-1892 (Fed. Cir. October 4,2018)(“Appellees’ Brief”).8

8. Specifically, respondents argued:
the condensers in [respondents’] extraction system
do not have a one-way check valve, seal pot, or any
other type of device that prevents atmospheric air
from entering the tank. Similarly, the relief vent. .
. does not prevent entry of air from the atmosphere.
Appellee’s Brief at 38-39.

15
5. The Federal Circuit Affirmed A Void Stipulated
Judgment Without Opinion And On Alternative
New Grounds, Indicating During Oral Argument
That The Court’s Prior Claim Construction Had
Not Been Changed
During oral argument, the Federal Circuit surprisingly
indicated that the District Court did not change its prior
construction of “sealed tank” despite the District Court
adding a new piece of physical embodiment, a “one-way
check valve”:
PANEL JUDGE: I’d like to ask you about
claim construction. So, one of the things that
you argue is you say that the District Court
reinterpreted our interpretation of the claim of
the term “sealed tank.” But isn’t it fair maybe
to say that what the District Court actually did
was look at the term “sealed tank” and how
we interpreted it in the context of the entire
claim phrase, which talks about extraction in
a sealed tank. So isn’t it most fair to read the
District Court’s construction as being simply
an understanding of the entire phrase in light
of the federal circuit’s interpretation of sealed
tank.
PETITIONER’S COUNSEL: Your Honor, the
District Court added a one-way check valve to
the PANEL JUDGE: Well, it said that you have to
have — the extraction has to — the entirety of
the extraction has to be in a sealed tank, right,

16
as defined by the federal circuit, the meaning
of sealed tank as defined by the federal circuit?
And then there was the discussion of the one­
way valve and the two-way valve.9
If the District Court did not change its construction of
“sealed tank” to add a “one-way check valve”, which was
petitioner’s sole basis for stipulating to judgment of non­
infringement of respondents’ old process, the stipulated
judgment is ipso facto inapplicable and void and the
Federal Circuit had no jurisdictional basis to affirm the
judgment. See, e.g., Verma v. Polaris Software Lab Ltd.,
229 F. App’x 112, 115 (3d Cir. 2007); Donovan v. RRL
Corp., 26 Cal. 4th 261,280 (2001).
To overcome the apparent lack of appellate jurisdiction,
respondents falsely argued for the first time during oral
argument that petitioner stipulated to final judgment on
an alleged “separate” ground that atmospheric air may
not enter a “sealed tank”:
RESPONDENTS’ COUNSEL: ... And one
other point I want to make is they really they stipulated to non-infringement on two
separate grounds. ... The other grounds that
they stipulated on are that the District Court
said oxygen is not allowed to enter the tank.
Oral Argument at 25:10-25:34.
9. Archive of Oral Argument in Kaneka Corporation v.
Xiamen Kingdomway Group Co., No. 2018-1892 (Fed. Cir.) at 11:4513:02, available at http://www.cafc.uscourts.gov/oral-argumentrecordings (search “2018-1892” in Appeal Number) (hereinafter
“Oral Argument”).

17
According to respondents, the Federal Circuit must
affirm the stipulated judgment if air may not enter a
“sealed tank”, even if a “one-way check valve” was not
added to the court’s prior construction, contrary to
respondents’ original assertion before and during the
appeal.10
The Federal Circuit agreed:
PANEL JUDGE: But there are two elements
then that are in dispute dealing with the claim
construction, and it looks to me like they are
simply saying we stipulate that if the District
Court is right with respect to the claim
construction, we would lose. Oral Argument at
27:58-28:15.
Four days later, the Federal Circuit issued a Rule 36
decision without opinion that merely stated, “AFFIRMED.
See Fed. Cir. R. 36.” Pet. App. A, pp. la-2a.
6. The Panel Denies Rehearing Without Opinion
Petitioner petitioned for rehearing arguing that if the
District Court did not change the construction of “sealed
tank” to add a “one-way check valve” as the panel indicated
during oral argument, the stipulated judgment is void.
Combined Petition for Panel Rehearing and Rehearing
10. Respondents argued during the appeal that petitioner
by stipulating to judgment based on the “one-way check valve”
waived its right to argue that respondents’ process does not allow
entry of air in its tank. Appellees’ Brief at 44-45; Appellant’s Reply
Brief at 23-25.

18
EnBanc for Plaintiff-Appellant at 11-13, Kaneka Corp. v.
Xiamen Kingdomway Group Co., No. 2018-1892 (Fed. Cir.
June 13,2019). Petitioner further argued that the Federal
Circuit lacked jurisdiction to affirm a void stipulated
judgment and thus should remand the case for a jury trial
on the infringement of respondents’ old manufacturing
process that was previously ordered by the District Court.
Id. at 13-14.
Petitioner explained that Paragraph 14(1) of the
stipulated judgment makes clear that the addition of a
“one-way check valve” was the sole reason that petitioner
stipulated to judgment on the old process, and that it never
stipulated to judgment on “separate” grounds including
that air may not enter a “sealed tank” during extraction
as respondents had falsely argued for the first time during
oral argument. Id. at 5-8.
Indeed, respondents’ last-minute argument that
petitioner stipulated to judgment because air may not
enter a “sealed tank” is obviously false because the
District Court denied respondents’ motion for summary
judgment of non-infringement based on that precise
disputed issue of fact. The District Court held:
[T]he Court finds that a genuine dispute exists
as to whether the old and new processes used
by [respondents] literally perform extraction
using “sealed tanks,” and accordingly DENIES
summary judgment in favor of [respondents] on
this issue. [Petitioner’s] expert, Dr. Sherman,
testified and opined that [respondents’] new and
old processes extract CoQlO in a “sealed tank”
because although these processes include relief

19
valves that can expose the tank’s contents to the
atmosphere, [respondents’] SOP, coupled with
the purpose of the relief valve—to prevent the
buildup of the solvent hexane, which can create
an explosion if too pressurized—reveal that
the valves “close to prevent any potential
drawing in of atmospheric air exposed to the
hexane...”
Defendants do not directly challenge Dr.
Sherman’s testimony or opinions, nor do they
offer any affirmative evidence of their own.
Pet. App. D, pp. 89a-90a (internal citations
omitted) (emphasis added).
The District Court then ordered these genuine issues
of disputed material fact as to whether air enters
respondents’ tank to be determined by a jury. Pet. App.
D, p. 96a.
Respondents’ false assertion that petitioner stipulated
to judgment of non-infringement On the alleged “separate”
ground that air may not enter the tank is belied by
and wholly unsupported by the record and completely
implausible given that petitioner based its opposition
to summary judgment on unrefuted evidence that air
does not enter respondents’ tank. Respondents’ alleged
“separate” ground has no bearing on or relevance to
petitioner’s void stipulated judgment, which was based
solely on the District Court’s patently incorrect change
to the construction of “sealed tank” to add a “one-way
check valve.”

20

The Federal Circuit requested a response to
petitioner’s petition for rehearing making manifest that
it affirmed judgment of non-infringement on alternative
grounds unrelated to the improper addition of a “one-way
check valve.” Invitation for Response from Appellees,
Kaneka Corp. v. Xiamen Kingdomway Group Co., No.
2018-1892 (Fed. Cir. Jul. 12,2019). If the panel had simply
affirmed the patently incorrect change to the construction
to add such a valve, it need not have asked for a response to
petitioners’ arguments for rehearing. The panel, however,
denied rehearing again without opinion. Pet. App. F, pp.
138a-140a.
REASONS FOR GRANTING THE WRIT
Since Rule 36 was implemented in 1989, patent law
practitioners, scholars and judges have criticized the
Federal Circuit’s use of the rule, claiming its excessive use
creates uncertainty in patent law and deprives patentees
of their property rights, contrary to Congress’ mandate
that the court provide guidance and consistency to patent
law.11
11. Dennis Crouch, “Wrongly Affirmed Without Opinion, ”
52 Wake Forest L. Rev. 561, 570 (2017); Gene Quinn and Steve
Brachmann, “No End in Sight for Rule 36 Racket at Federal
Circuit,” https://www.ipwatchdog.com /2019/01/29 /no-endsight -rule-36-racket-cafd/id- 105696/; Gene Quinn and Steve
Brachmann, “Is the Federal Circuit Using Rule 36 To Avoid
Difficult Subject Matter’?” https://www.ipwatchdog.com /2
018/07/30/federal-circuit-rule-36-avoid-difficult-subject-matter/
id=99202/; Peter Harter and Gene Quinn, “Does The Federal
Circuit’s Use Of Rule 36 Call Into Question Integrity Of The
Judicial Process” https://www.ipwatchdog.com/2017/02/14 /
federal-circuit-rule-36-integrtiy-judicial-process/id=78261/;

21
Past petitioners have repeatedly asked this Court
to supervise the Federal Circuit’s use of Rule 36.12
Petitioners have argued that the Federal Circuit’s use of
the rule is excessive, issuing decisions without opinion in
over 40% of its appeals.13 In comparison, only four other
circuits permit decisions without opinion and collectively
they issue such decisions far less than the Federal
Ciruict.14 The remaining and majority of the circuits
require at least some basis for their decisions despite
having significantly larger dockets.15 Recently, petitioners
David Johnson, “’You Can’t Handle the Truth!’-Appellate Courts’
Authority To Dispose of Cases Without Written Opinions, ” 22
App. Advoc. 419 (2010); Peter Harter and Gene Quinn, “Rule
86: Unprecedented Abuse at the Federal Circuit,” https://www.
ipwatchdog.com/2017/01/12 /rule-36-abuse-federal circuit/
id=6971/.
12. See, e.g. Celgard, LLCv. Iancu, No. 16-1526, cert denied,
138 S. Ct. 1714 (2018); Integrated Claims Sys., LLC v. Travelers
Lloyds of Texas Ins. Co., No. 17-330, cert denied, 138 S. Ct. 1693
(2018); C-Cation Techs., LLC v. Arris Group, Inc., No. 17-617,
cert denied, 138 S. Ct. 1693 (2018); Stambler v. Mastercard
International Inc., No. 17-1140, cert denied, 139 S. Ct. 54 (2018);
Security People, Inc. v. Ojmar US, LLC, No. 17-1443, cert denied,
138 S. Ct. 2681 (2018).
13. See Jason Rantanen, Data on Federal Circuit
Appeals and Decisions, PATENTLY-0 http://patentlyo.com/
patent/2016/06/circuit-appeals-decisions.html; Rebecca A.
Lindhorst “Because I Said So: The Federal Circuit, the PTAB,
and the Problem With Rule 86 Affirmances, ” 69 Case W. Res. L.
Rev. 247,252 (2018).
14. 3d Cir. I.O.P. 6.3.2; 5th Cir. R. 47.6; 8th Cir. R. 47B; 10th
Cir. R. 36.1.
15. 1st Cir. R. 36(a); 2d Cir. I.O.P. 32.1.1; 4th Cir. R. 36.3; 6th

22
have argued that the federal circuits’ differing rules and
practices regarding decisions without opinion constitute
a circuit split that this Court should resolve to establish
procedural consistency.16 This Court, however, has thus
far declined to respond.
This petition echoes the prior criticism of the Federal
Circuit’s excessive use of Rule 36. Petitioner submits that
this case justifies the Court’s, supervisory review where
others have not because it regards the Federal Circuit’s
unprecedented use of the rule to: 1) affirm a judgment of
non-infringement on alternative grounds not raised by
the parties where affirmance of judgment is dependent on
genuine issues of disputed material fact identified by the
District Court and not yet determined by a jury; and 2)
affirm a void stipulated judgment of non-infringement and
thereby reverse without appellate jurisdiction the District
Court’s denial of summary judgment of non-infringement,
shielding its reversal from this Court’s review.
The Federal Circuit’s Rule 36 decision violates this
Court’s holding in Chenery, which prohibits affirmances of
judgments on alternative grounds where disputed issues
of fact have not yet been determined by a jury, and in
McKeithen, which prohibits reversals without opinion of
district court’s reasoned decisions because such summary
reversals prevent review by this Court.
Cir. R. 36; 9th Cir. R. 36-1; D.C. Cir. R. 36(d). The Seventh Circuit
does not have a local rule, but does not enter judgments without
opinions. See, e.g., Thomas v. WGN News, 637 F. App’x 222, 223
(7th Cir. 2016) (providing a brief explanation for affirmance).
16. Straight Path IP Group, LLC v. Apple, Inc., No. 19-253,
cert denied, S. Ct. (2019); Franklin-Mason v. United States,
No. 17-1256, cert denied, 138 S. Ct. 1703 (2018).

23

The Federal Circuit’s Rule 36 decision without
opinion denied petitioner its due process right of access
to the courts by: 1) denying petitioner a trial by jury
of disputed issues of fact as to infringement reserved
exclusively for a jury under Markman and the Seventh
Amendment; 2) denying notice and opportunity to respond
to the alternative grounds raised by respondents for the
first time during oral argument; 3) shielding its denial of
petitioner’s due process from review by this Court, and
by 4) failing to resolve the inherent conflict between the
District Court’s and Texas Court’s claim constructions,
which was fully briefed by the parties.
The Federal Circuit’s Rule 36 decision results in an
uncertain and conflicting claim construction of “sealed
tank” that requires a “one-way check valve”, which
necessarily prevents petitioner from enforcing its valid
patent against competitors and other infringers. The
Rule 36 decision also prevents competitors, inventors
and applicants for patents from knowing the scope of
petitioner’s patent rights and whether they infringe or
otherwise conflict with petitioner’s patent. The Federal
Circuit’s Rule 36 decision thus violates Congress’ mandate
that the court unify decisions in patent cases.
The Federal Circuit has stated that Rule 36 is used
only when “the position of one party is so clearly correct
as a matter of law that no substantial question regarding
the outcome of the appeal exists.” Joshua v. United States,
17 F.3d 378,380 (Fed. Cir. 1994). In other words, “it’s not
necessary to explain, even to the loser, why he lost.” The
Seventh Annual Judicial Conference of the United States
Court ofAppeals for the Federal Circuit, 128 F.R.D. 409,
420 (1989). The Federal Circuit has pushed the limits of

24
Rule 36 beyond its stated purpose to dispose of claim
construction appeals that cannot be rationally explained
and disposed of with written opinions.
Here, judgment of non-infringement is not “so clearly
correct” that it is not necessary to tell petitioner why it
lost. To the contrary, here, there is no rational explanation
or legal basis for affirmance. The Federal Circuit could
not affirm with a written opinion a patently incorrect
claim construction that violates established rules of claim
construction. The Federal Circuit could not affirm with a
written opinion avoid stipulated judgment on alternative
grounds where the District Court had previously ordered
genuine issues of disputed material fact as to infringement
to be determined by a jury. An opinion affirming judgment
of non-infringement would simply not write. Rule 36
is not meant to dispose of complex cases like this one
where a jury has not yet determined infringement and
the Federal Circuit has not yet resolved conflicting claim
constructions.
This Court should require the Federal Circuit to
explain its affirmances of judgments of non-infringement
where claim construction is uncertain or conflicting. Under
Chenery, this Court should further require justification of
affirmances of judgments on alternative grounds where
judgments depend on a determination of genuine issues of
disputed material fact that must be but has not yet been
determined by a jury. Under McKeithen, the Court should
further require a stated legal basis reviewable by this
Court for reversals of district courts’ denials of summary
judgment of non-infringement.

25

In this case, this Court should vacate the Federal
Circuit’s Rule 36 affirmance and return the parties to
their positions prior to the void stipulated judgment
rendered immaterial by the Federal Circuit’s affirmance
on alternative grounds by directing the Federal Circuit to
remand the case to the District Court for a trial by jury
on the genuine issues of disputed material fact previously
identified by the District Court.
I. THE FEDERAL CIRCUIT MAY NOT
AFFIRM WITHOUT OPINION, AND ON
ALTERNATIVE GROUNDS, JUDGMENTS OF
NON-INFRINGEMENT WHERE GENUINE
ISSUES OF MATERIAL FACT HAVE NOT BEEN
DETERMINED BY A JURY
Under Rule 36, the Federal Circuit may affirm without
opinion if:
(a) the judgment, decision, or order of the trial
court appealed from is based on findings that
are not clearly erroneous; (b) the evidence
supporting the jury’s verdict is sufficient; (c) the
record supports summary judgment, directed
verdict, or judgment on the pleadings; (d) the
decision of an administrative agency warrants
affirmance under the standard of review in
the statute authorizing the petition for review;
or (e) a judgment or decision has been entered
without an error of law. Fed. Cir. R. 36.
By the nature of the rule, the Federal Circuit does
not explain which of the above conditions of affirmance it
relies on to issue its decision. In the present case, however,

26

the Federal Circuit could not rely on Rule 36(a) because
petitioner’s stipulated judgment of non-infringement is
based solely on the District Court’s improper change to
the construction to add a “one-way check valve.” If there
was no change to the construction, the stipulated judgment
is inapplicable and void.
The Federal Circuit could not rely on Rule 36(b) and
(c) because the District Court found disputed issues of fact
as to whether respondents practice the patent’s “sealed
tank” limitation, and thus denied summary judgment of
non-infringement and ordered a trial by jury that has
not yet occurred. The Federal Circuit could also not
rely on Rule 36(d) because this is not an appeal from an
administrative agency.
Thus, the Federal Circuit must have affirmed under
Rule 36(e) finding the District Court’s judgment was
entered without error of law but on a ground alternative
to the District Court’s patently incorrect change to the
construction to add a “one-way check valve.” Such a
decision without opinion, however, violated this Court’s
holdings in Chenery and Markman. In Chenery, the
Court held:
... in reviewing the decision of a lower court, it
must be affirmed if the result is correct although
the lower court relied upon a wrong ground or
gave a wrong reason.... It would be wasteful to
send a case back to a lower court to reinstate a
decision which it had already made but which
the appellate court concluded should properly
be based on another ground within the power
of the appellate court to formulate. But it is

27

also familiar appellate procedure that where
the correctness of the lower court’s decision
depends upon a determination of fact which
only a jury could make but which has not
been made, the appellate court cannot take
the place of the jury. 318 U.S. 80, 88 (1943)
(emphasis added).
In Markman, the Court held that infringement “is
a question of fact, to be submitted to a jury.” 517 U.S.
370, 384 (1996). Under this Court’s holdings in Chenery
and Markman, the Federal Circuit is prohibited from
affirming on alternative new grounds a judgment of non­
infringement if as here the judgment is dependent on
genuine issues of disputed material fact as to infringement
that have not been determined by a jury.
Here, the Federal Circuit erred by doing just that.
The Federal Circuit affirmed judgment on the alternative
ground argued for the first time by respondents during
oral argument that petitioner stipulated to judgment
because air may not enter a “sealed tank.” Petitioner
did not stipulate to judgment on this alleged “separate”
. ground because the District Court had expressly reserved
that precise issue for a jury trial. Based on petitioner’s
evidence that air does not enter respondents’ tank, and
lack of any evidence from respondents to the contrary,
the District Court denied respondents summary judgment.
The correctness of the District Court’s judgment of non­
infringement is therefore dependent on disputed issues
of fact yet to be determined by a jury.
Under Chenery and Markman, the Federal Circuit
lacked the authority and jurisdiction to resolve these

28

disputed issues of fact, which are reserved exclusively for
the jury. The Federal Circuit may not take the place of
the jury. The Federal Circuit deprived petitioner its due
process right of access to the courts by denying it a jury
trial under the Seventh Amendment.
The Federal Circuit also denied petitioner its due
process right of notice and an opportunity to respond to
argument. The Federal Circuit’s alternative ground for
affirmance was not briefed by the parties, but instead
asserted by respondents for the first time during oral
argument. An appellate court violates a party’s most
basic due process rights to notice of the issues and an
opportunity to meaningfully respond with evidence when
the court’s affirmance is based on reasons that are newly
presented on appeal, and especially so if the reasons for
affirmance are articulated for the very first time during
the appellate oral argument. See, e.g. In re Leithem, 661
F.3d 1316,1320-21 (Fed. Cir. 2011).
Respondents should also be judicially estopped from
changing their legal position and arguing alternative
grounds for affirmance for the first time during oral
argument. Under the doctrine of judicial estoppel, where
a party assumes a certain position in a legal proceeding,
and succeeds in maintaining that position, the party may
not thereafter, simply because his interests have changed,
assume a contrary position. Davis v. Wakelee, 156 U.S.
680,6891895; see also New Hampshire v. Maine, 532 U.S.
742, 749 (2001) (“judicial estoppel . . . prevents a party
from prevailing in one phase of a case on an argument
and then relying on a contradictory argument to prevail
in another phase.”).

29

At the time of the stipulated judgment, respondents’
position was that the District Court changed the
construction of “sealed tank” to add a “one-way check
valve.” Respondents argued to their benefit at that time
and during the appeal that they do not infringe because
their tank does not have such a valve. Petitioner stipulated
to judgment of non-infringement for this reason alone.
Respondents should not be allowed to change their position
and argue alternative grounds after obtaining judgment
of non-infringement based on the District Court’s evident
and improper change to the construction to add a “one­
way check valve.”
For these reasons, Rule 36 should be read to preclude
affirmance of judgment of non-infringement without
opinion, and on alternative grounds neither raised
nor argued by the parties in the appeal, if as here the
correctness of the judgment depends upon a determination
of fact which only a jury could make but which has not yet
been made.

II. the federal circuit may not affirm
WITHOUT OPINION VOID STIPULATED
JUDGMENTS AND THEREBY REVERSE
WITHOUT APPELLATE JURISDICTION
REASONED DECISIONS OF DISTRICT COURTS,
SHIELDING SUCH REVERSALS FROM THIS
COURT’S REVIEW
Under 28 U.S.C § 2071 and Federal Rule of Appellate
Procedure 36, circuit courts may enact rules that allow
them to dispose of their cases without opinion. Indeed,
the Federal, Third, Fifth, Eighth, and Tenth circuits
have enacted rules that permit summary affirmances

30

without opinion. This Court expressly acknowledged a
circuit court’s discretion to dispose of its cases without
opinion with respect to summary affirmances. Taylor v.
McKeithen, 407 U.S. 191 (1972).
In McKeithen, the district court after lengthy
consideration approved a plan that departed from
Louisiana’s historical voting boundaries. The Fifth Circuit
reversed without opinion, and thereby adopted the state’s
plan preserving those boundaries. This Court held:
We, of course, agree that the courts of appeals
should have wide latitude in their decisions
of whether or how to write opinions. That
is especially true with respect to summary
affirmances. See Rule 21, Court of Appeals
for the Fifth Circuit. But here the lower court
summarily reversed without any opinion on
a point that had been considered at length
by the District Judge. Under the special
circumstances of this case, we are loath to
impute to the Court of Appeals reasoning that
would raise a substantial federal question when
it is plausible that its actual ground of decision
was of more limited importance. 407 U.S. 191,
194 n. 4 (1972).
Under McKeithen, a circuit court should not summarily
reverse a reasoned decision of a district court because
under such circumstances the Court cannot determine
whether the decision raises a substantial federal question
for its review. Id. A circuit court’s summary reversal
without opinion shields its reversal from this Court’s
review and denies a party its due process right of access
to this Court.

31
This Court has recognized on numerous occasions
that parties’ access to the courts is a fundamental right
protected by the Fifth and Fourteenth Amendments. See,
e.g., Boddie v. Connecticut, 401 U.S. 371, 377-79 (1971)
(“within the limits of practicability, a State must afford to
all individuals a meaningful opportunity to be heard” in
its courts); see also Tennessee v. Lane, 541 U.S. 509,53234 (2004); Bounds v. Smith, 430 U.S. 817,821-23 (1977).
Here, the Federal Circuit exceeded its authority and
jurisdiction by summarily reversing without opinion the
District Court’s reasoned decision denying summary
judgment of non-infringement. Based on its review of
petitioner’s unrefuted evidence that air does not enter
respondents’ tank, the District Court denied summary
judgment with respect to the “sealed tank” limitation. The
District Court expressly reserved these genuine issues of
disputed material fact for a jury trial. The Federal Circuit
lacked authority and jurisdiction to decide these issues in
the place of a jury.
The Federal Circuit’s Rule 36 decision raises
substantial federal questions under the Fifth and Seventh
Amendments and Markman regarding its denial of
petitioner’s right to a trial by jury. The Federal Circuit
failed to explain how and why the genuine issues of
disputed material fact as to infringement previously
identified by the District Court and reserved exclusively
for a jury was determined by its Rule 36 decision without
opinion. The Rule 36 decision violates McKeithen by
improperly shielding the court’s denial of petitioner’s due
process rights from this Court’s review.

32

The Rule 36 decision also denies petitioner the ability
to engage in purposeful communication with the Federal
Circuit regarding claim construction. In the underlying
appeal and the prior Kingdomway appeal, the parties
submitted thousands of pages of briefing and evidence
regarding the conflicting constructions of “sealed tank”
issued by the District Court and the Texas Court. By
issuing a decision without opinion, the Federal Circuit
declined to respond to the parties substantial briefing and
evidence and resolve the inherent conflict in the district
courts’ constructions. Purposeful communication requires
a response. Congress’ mandate that the Federal Circuit
unify patent decisions requires resolution of the conflict.
For these reasons, Rule 36 should be read to preclude
affirmances without opinion of void stipulated judgments
of non-infringement that reverse without appellate
jurisdiction a District Court’s reasoned decision denying
summary judgment of non-infringement.
m. THE FEDERAL CIRCUIT MAY NOT AFFIRM
JUDGMENTS OF NON-INFRINGMENT
WITHOUTOPINIONAND WITHOUT RESOLVING
CONFLICTING CLAIM CONSTRUCTIONS,
PREVENTING PATENTEES FROM ENFORCING
THEIR VALID PATENTS
A. The Federal Circuit’s Rule 36 Decision Violates
Established Rules of Claim Construction
The Federal Circuit’s decision en banc in Markman
v. Westview Instruments, Inc. fundamentally changed
patent law. 52 F. 3d 967 (Fed. Cir. 1995), aff’d 517 U.S.
370 (1996). Judge Mayer, in his concurrence, specifically
pointed out the importance of the decision:

33

All these pages and all these words cannot
camouflage what the court well knows: to decide
what the claim means is nearly always to decide
the case. 52 F.3d 967, 989 (Fed. Cir. 1995).
Chief Judge Archer, who wrote the decision, also
noted how important claim construction is to both the
patentee and the competitor and alleged infringer.
Quoting Robinson on Patents, §733 at 483-84, Chief Judge
Archer explained:
To treat the nature of the patented invention as a
matter of fact, to be inquired of and determined
by a jury, would at once deprive the inventor
of the opportunity to obtain a permanent
and universal definition of his rights under
the patent, and in each case of infringement
it would subject him to the danger of false
interpretation, from the consequences of
which he could not escape.
Chief Judge Archer further explained:
When a court construes the claims of the patent,
it “is as if the construction fixed by the court has
been incorporated in the specification, {Curtis
on Patents, §452 at 609), and in this way the
court is defining the federal legal rights created
by the patent document. 52 F.3d 967, 978-79
(Fed. Cir. 1995).
Markman set forth the rules of claim construction,
which are now well known and provide the hierarchy of
sources used to determine a claim’s meaning including

34
the patent’s specification. See Markman, 517 U.S. at
389; Phillips, 415 F.3d at 1315. Indeed, the Supreme
Court has long held that the specification must always
be considered when defining claim language. See Hogg v.
Emerson, 47 U.S. (6 How.) 437, 482,12 L. Ed. 505 (1848)
(the specification is a “component part of the patent” and
“is as much to be considered with the [letters patent], in
construing them, as any paper referred to in a deed or
other contract”).
Here, the District Court did not follow the established
rules of claim construction when it changed the construction
of “sealed tank” to add a “one-way check valve” to
prevent air from entering the tank and allow flammable
gas to escape. The District Court did not refer to the
relevant specification or the file history, as nothing in
the specification or the file history even suggests use of a
“one-way check valve.” Indeed, the relevant discussion in
the specification expressly states that it is “not necessary”
to prevent oxidation of reduced CoQ10 during extraction.
The District Court’s construction directly conflicts
with the patent and the reasoned construction of the Texas
Court adopted by the Federal Circuit in Kingdomway.
The Texas Court’s construction of “sealed tank” does
not require a “one-way check valve.” The Texas Court
expressly recognized that “the patent specification
contemplates extraction processes that are not protected
from an oxidation reaction.” Zhejiang Med. Co., 2012
U.S. Dist. LEXIS 194770, at *71-72. The Texas Court’s
construction makes clear that a “sealed tank” does not
prevent oxidation, but rather prevents flammable gas from
escaping the tank and catching fire in an industrial plant.

35

The Federal Circuit’s Rule 3 6 decision without opinion
fails to provide any analysis of claim construction in
accordance with “established rules of construction to
arrive at a true and consistent scope of the patent owner’s
legal rights” and resolve in accordance with Congress’
mandate the inherent conflict between the two district
courts’ constructions. Pet. App. A, pp. la-2a.
B. The Federal Circuit’s Rule 36 Decision Subjects
Petitioner To The District Court’s Patently
Incorrect Claim Construction, “From The
Consequences Of Which [It] Cannot Escape”
Petitioner has a constitutional right under Article
1, Section 8, Clause 8 of the constitution to enforce its
patent against other infringers. That right has been
taken away by the Federal Circuit’s failure to resolve the
inherent conflict in the district courts’ claim constructions.
Petitioner is forever held to the consequence of the District
Court’s change of “sealed tank” to add a “one-way check
valve.”
If Petitioner initiated a patent infringement case
against another infringer, the infringer would move for
summary judgment based on the doctrine of collateral
estoppel arguing Petitioner is bound by the District
Court’s claim construction as affirmed without opinion
by the Federal Circuit. The District Court would likely
grant that motion as the infringer would not be using a
“one-way check valve”, as no company in the world needs
a “one-way check valve” that allows flammable gas to
escape and catch fire in its industrial plant. The Federal
Circuit has made clear that a Rule 36 decision satisfies the
requirements of collateral estoppel. See Phil-Insul Corp.
v. Airlite Plastics Co., 854 F3d. 1344, (Fed. Cir. 2017).

36

In Phil-Insul Corp., the patentee filed suit against
multiple defendants. The parties then filed a joint motion
for early claim construction of two claim terms, which the
district court granted. Based on the district court’s claim
construction, the court granted summary judgment. The
patentee then appealed both claim constructions to the
Federal Circuit, but the Federal Circuit affirmed without
opinion under Rule 36.
Not knowing if either or both claim constructions
were affirmed, the patentee had two options, abandon any
further enforcement, or file a second case against another
infringer. Patentee chose to file a second case against
Airlite Plastics. Airlite moved for summary judgment
based on collateral estoppel arguing the patentee was
bound by the claim constructions previously affirmed
without opinion by the Federal Circuit. The district court
granted Airlite’s motion and the patentee appealed again
to the Federal Circuit.
This time, the Federal Circuit affirmed with an opinion
finding that neither of the claim constructions at issue in
the first appeal could have independently supported non­
infringement, and therefore its Rule 36 affirmance in the
first appeal “necessarily meant that we found no error in
either of the district court’s claim constructions.” Had the
Federal Circuit provided this summary opinion in the first
appeal, the parties and the courts would have avoided the
time and expense of the second infringement case and
the second appeal, reducing the Federal Circuit’s docket.
Like the patentee in Phil-Insul Corp., petitioner must
either abandon enforcement of its valid patent or invest
substantial time and expense of filing additional litigation

37

against another infringer, which will undoubtedly lead to
another appeal to the Federal Circuit, which may lead to
another Rule 36 decision. Such a waste of the parties’ and
judicial resources could be avoided if the Federal Circuit
was required to explain its affirmances as to uncertain
and conflicting claim constructions so that the patentee,
and alleged infringers would know where they stand on
claim construction issues, which is the dispositive issue in
almost all cases. The Federal Circuit’s Rule 36 decision
effectively leaves petitioner’s valid patent unenforceable.
C. The Federal Circuit’s Rule 36 Decision Violates
Congress’ Mandate That The Court Unify
Decisions In Patent Cases
The Federal Circuit was formed pursuant to the
Federal Courts Improvement Act of 1982 and was enacted
and signed into law by President Reagan (Federal Courts
Improvement Act of 1982, Pub L. No. 97-164, 96 Stat 25).
The Senate Judiciary Committee’s Report sets forth the
purpose for forming the court:
to fill a void in the judicial system by creating
an appellate forum capable of exercising
nationwide jurisdiction over appeals in areas
of the law where Congress determines there
is a special need for nationwide uniformity; to
improve the administration of the patent law
by centralizing appeals in patent cases: and to
provide an upgraded and better organized trial
forum for government claim cases. S. Rep No.
97-275 (1981) at p. 2.

38

The Federal Circuit is not adhering to Congress’
legislative mandate by issuing Rule 36 affirmances without
opinions that fail to resolve uncertain and conflicting claim
constructions. Without an opinion, the parties are left not
knowing which conflicting claim construction applies. As
explained above, the consequences are significant, and
with no judicial escape. Additional litigation unfairly
increases a patentee’s financial burden and takes away
its right to enforce its valid patent. Subsequent litigation
also increases the workload of the district courts and the
Federal Circuit, thereby negating an alleged benefit of
Rule 36 to reduce the Federal Circuit’s docket.
D. This Court Should Exercise Its Supervisory
Authority And Require The Federal Circuit
To Explain The Court’s Decisions Regarding
Uncertain And Conflicting Claim Constructions
Originally enacted in 1934 and revised, only slightly, in
1988, the Rules Enabling Act gives The Supreme Court the
power to prescribe general rules of practice and procedure
pursuant to 28 U.S.C. §2072(a). The Supreme Court has
a long history of exercising its supervisory authority
over the lower courts. In Thiel v. Southern Pacific Co.,
328 U.S. 217 (1946), the Supreme Court imposed a rule
governing the composition of federal juris. In Western
Pacific Railroad Corp. v. Western Pacific Railroad Co.,
345 U.S. 247 (1953) the Supreme Court issued guidelines
regulating the way the Courts of Appeals consider petition
for rehearing en banc. More recently, in Dickerson v.
United States, 530 U.S. 428,437 (2000) the Supreme Court
specifically held that:

39
This Court has supervisory authority over the
federal courts, and we may use that authority
to prescribe rules of evidence and procedure
that are binding in those tribunals.
Based on the unfair consequences of Rule 36 to
patentees, the Supreme Court should exercise its
supervisory authority and require the Federal Circuit to
explain its affirmances of uncertain and conflicting claim
constructions.
CONCLUSION
For the foregoing reasons, this Court should grant
this petition for a writ of certiorari.
Respectfully submitted,
Keith D. Nowak
Counsel of Record
William F. Sondericker
Gerald W. Griffin
Carter Ledyard & Milburn LLP
Two Wall Street
New York, New York 10005
(212) 732-3200
nowak@clm.com
Counsel for Petitioner

